A001

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1650

In re: ROBYN JILL FARRINGTON, aka Robyn Jill Fleisher,
Debtor

ROBYN JILL FARRINGTON,
Appellant
v.
U.S. BANK TRUST N.A., as trustee for LSF9 Master Participation Trust;
LSF9 MASTER PARTICIPATION TRUST;
CALIBER HOME LOANS, INC.; JP MORGAN CHASE BANK, N.A.

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 18-cv-08573)
District Judge: Honorable Jose L. Linares

Submitted Pursuant to Third Circuit LAR 34.1(a)
January 3,2020
Before: JORDAN, BIBAS and PHIPPS, Circuit Judges
(Opinion filed: January 14, 2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

A002
PER CURIAM
Robyn Jill Farrington appeals the District Court’s order affirming the Bankruptcy
Court’s order granting Appellees’ motion to dismiss her adversary complaint. For the
reasons below, we will affirm the District Court’s order. The procedural history of this
case and the details of Farrington’s claims are well known to the parties, set forth in the
District Court’s opinion, and need not be discussed at length. Briefly, in May 2017, the
Superior Court of New Jersey entered a foreclosure judgment against Farrington. It
ordered that the mortgaged property be sold and Appellee U.S. Bank paid from the
proceeds, while Farrington was foreclosed from all equity in the property.
In August 2017, Farrington filed a counseled Chapter 13 petition in the
Bankruptcy Court. In an adversary complaint, she sought invalidation of U.S. Bank’s
liens against the property and a declaration that the property was part of the bankruptcy
estate. She repeated an argument rejected by the Superior Court: that the mortgage had
been sold before it was assigned to U.S. Bank and U.S. Bank lacked standing to collect.
Appellees filed a motion to dismiss which the Bankruptcy Court granted. The
Bankruptcy Court dismissed the complaint pursuant to the Rooker-Feldman doctrine.1 It
also concluded that res judicata and Farrington’s lack of standing to challenge the
assignment of the mortgage provided bases for the dismissal. It also determined that

1 The Rooker-Feldman doctrine deprives a federal court of jurisdiction to review, directly
or indirectly, a state court adjudication. See D.C. Court of Anneals v. Feldman 460 U.S.
462 (1983); Rooker v. Fid. Tr. Co.. 263 U.S. 413 (1923).
2

A003
Farrington could not object to Appellees’ proof of claim. Farrington, still represented by
counsel, appealed the Bankruptcy Court’s order to the District Court.
The District Court agreed that Farrington’s adversary complaint was barred by the
Rooker-Feldman doctrine. In the alternative, the District Court concluded that her claims
were barred by res judicata. Farrington filed a pro se notice of appeal, and we have
jurisdiction under 28 U.S.C. § 158(d)(1).
We need not address whether Farrington’s claims are barred by the RookerFeldman doctrine, because we agree with the District Court that her claims are barred by
res judicata. See Hoffman v. Nordic Nats.. Inc., 837 F.3d 272, 277 (3d Cir. 2016) (court
may bypass jurisdictional issue to dismiss on non-merits ground of res judicata).
Res Judicata
This doctrine bars claims that have been or could have been litigated in a prior
case between the same parties and are based on the same set of facts. See Blunt v. Lower
Merion Sch. Dist.. 767 F.3d 247, 276-77 (3d Cir. 2014). Farrington first challenges this
conclusion by arguing that res judicata does not apply to the dischargeability of debts.
However, in dismissing the adversary complaint, the Bankruptcy Court did not determine
the dischargeability of the debt.
Farrington then challenges the application of res judicata to her adversary
complaint. Under both New Jersey and federal law, three criteria are needed for res
judicata to apply to an action: (1) a prior action with a final judgment on the merits; (2)
the same parties involved in each action; and (3) the same cause of action. In re
3

A004
Mullarkev. 536 F.3d 215, 225 (3d Cir. 2008). Clearly, the same parties were involved in
each action.
Farrington argues that the state court’s judgment was not on the merits and was
not fairly litigated. She suggests that the foreclosure judgment was entered by state court
clerk’s office staff without any judge reviewing the evidence. She admits to contesting
the state court judgment but asserts that the state court refused to entertain her arguments.
However, the record does not support this contention.
Appellee U.S. Bank filed the foreclosure complaint in state court in January 2016.
After Farrington failed to respond, Appellee moved for a default judgment and then for
an entry of final judgment. In September 2016, Farrington filed a pro se motion in the
state court foreclosure proceedings opposing Appellee’s motion for final judgment and
seeking to have the default judgment vacated. She argued that she was never served a
complete copy of the complaint, was misled when she took out the original mortgage, and
was not served with a notice of intent to foreclose. She further contended that the
foreclosure was filed beyond the statute of limitations, the original note was lost, and that
there was an issue of who owned the loan.
Appellee filed a response. In April 2017, the state court held oral argument, which
it adjourned until May 2017 to allow Farrington to submit additional proof. Farrington
then filed a certification in opposition to the motion for final judgment, challenging
Appellee’s ownership of the mortgage. Appellee responded to her arguments.

4

A005
After another hearing on May 12, 2017, the Superior Court issued an order
denying Farrington’s objections, adjusting the amount due, and returning the matter to the
Foreclosure Unit for entry of final judgment. The court stated that the matter was before
it on an opposed motion for final judgment, that it had reviewed the parties’ papers, and
was entering the order for the reasons stated on the record.2 Farrington then filed a
motion for reconsideration and supplement which U.S. Bank opposed. After a hearing in
June 2017, the Superior Court denied the motion “having considered the submissions of
the parties and arguments.”
Farrington has not shown that the state court judgment was not on the merits or
that she did not have a fair opportunity to litigate those merits. She does not point to any
statement by the state court that it refused to consider her arguments. In a certification in
support of her motion for reconsideration, Farrington admitted that the state court asked
her questions at the hearing about the arguments she was raising. Suppl. App. at 369. As
noted above, the state court adjourned oral argument to give her time to submit additional
documentation. There would have been no reason for the court to do so if it were simply
refusing to consider her arguments. The state court’s rejection of her arguments does not
mean that the arguments were not fairly considered or that the judgment was not on the
merits.

2 The record does not contain a transcript of the state court hearings so we do not know
what reasons were stated on the record by the Superior Court.
5

A006
Without much explanation, Farrington contends that the adversary complaint
involves a different cause of action than the state court proceeding. However, the state
court action determined that U.S. Bank had ownership of the mortgage and the right to
foreclose and collect. In her adversary complaint, Farrington sought a determination that
Appellees did not own the mortgage and lacked standing to enforce the debt.
We agree with the District Court that Farrington’s action was barred by res
judicata.
Proof of claim
Farrington argues that the Bankruptcy Court abused its discretion in dismissing
her objections to Appellee LSF9 Trust’s proof of claim. While she contends that there
are “critical deficiencies” in the proof of claim, she does not describe these deficiencies
or her objections to the proof of claim in her brief.
Conclusion
The District Court did not err in affirming the Bankruptcy Court’s judgment.
Accordingly, for the above reasons as well as those set forth by the District Court, we
will affirm the District Court’s order.

6

Case 2:18-cv-08573-JLL Document

1AO0,fd 03/11/19 Pa9e 1 of 2 Pa9elD: 1090

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
IN RE: ROBYN JILL FARRINGTON
Debtor.

Bankruptcy No. 17-26505 (JKS)
Adv. No. 17-1775 (JKS)

ROBYN JILL FARRINGTON,
Civil Action No. 18-8573 (JLL)

Appellant,
v.

ORDER

U.S. BANK TRUST, N.A., as trustee for LSF9
Master Participation Trust, et al.,
Appellees.
This matter comes before the Court by way of Appellant Robyn Jill Farrington’s Notice of
Appeal of the Bankruptcy Court’s Order granting Appellees U.S. Bank Trust, N.A., as trustee for
LSF9 Master Participation Trust, LSF9 Master Participation Trust, and Caliber Home Loans Inc.’s
Motion to Dismiss Appellant’s Adversary Complaint with prejudice. (ECFNo. 1). For the reasons
expressed in the Court’s corresponding Opinion,

u

l+h

IT IS on this

day of March, 2019,

ORDERED that Appellant’s Appeal of the Bankruptcy Court’s Order granting Appellees’
Motion to Dismiss Appellant’s Adversary Complaint with prejudice, (ECF No. 1), is hereby
DENIED; and it is further
ORDERED that the Bankruptcy Court’s Order granting Appellees’ Motion to Dismiss
Appellant’s Adversary Complaint with prejudice is hereby AFFIRMED; and it is further

A2

Case 2:18-cv-08573-JLL Document ^g^d 03/11/19 Page 2 of 2 PagelD: 1091

ORDERED that this case shall be marked CLOSED.

JO^L. LINARES
QueTJudge, United States District Court

2

A3

Help

Sign In

JX

Search all cases and statutes...
Opinion

SignUp

Case details

From Casetext: Smarter Legal Research

Farrington v. U.S. Bank Tr. (In re
F arrington)
UNITED STATES DISTRICT COURT DISTRICT OF NEW JERSEY
Mar 11, 2019
Bankruptcy No. 17-26505 (JKS) (D.N.J. Mar. 11, 2019)

♦ Download

Copy Citation

p Treatment

Bankruptcy No. 17-26505 (JKS) Adv. No. 17-1775 (JKS) Civil Action No. 188573 (ILL)
03-11-2019

IN RE: ROBYN JILL FARRINGTON, Debtor. ROBYN JILL FARRINGTON,
Appellant, v. U.S. BANK TRUST, N.A., as trustee for LSF9 Master
Participation Trust, et al., Appellees.

Red flags, copy-with-cite, case summaries, annotated
statutes and more.
Learn more >

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 1 of 14

LINARES, Chief District Judge.

NOT FOR PUBLICATION
OPINION
LINARES, Chief District Judge.

2

This matter comes before the Court by way of Appellant Robyn Jill
Farrington's Notice of Appeal of the Bankruptcy Court's Order granting the
Motion to Dismiss Appellant's Adversary Complaint with prejudice. (ECF
No. 1). Appellees U.S. Bank Trust, N.A., as trustee for LSF9 Master
Participation Trust ("US Bank"), LSF9 Master Participation Trust ("LSF9"),
and Caliber Home Loans Inc. ("Caliber") submitted opposition to the
appeal. (ECF No. 16). Appellant did not file a reply within the time provided
by this Court, (see ECF Nos. 7,11), the Federal Rules of Civil Procedure, the
Local Civil Rules, or the Federal Rules of Bankruptcy Procedure. The Court
has considered the parties' submissions and decides this matter without oral
argument, pursuant to Federal Rule of Civil Procedure 78. For the reasons
set forth below, the Court denies Appellant's appeal and affirms the
Bankruptcy Court's Order. *2

I. BACKGROUND1
1 This background is derived from the Bankruptcy Record which the parties
have designated and submitted to this Court. (ECF Nos. 6,12-2-12-14).

A. The Mortgage and Assignments
On July 7,2006, Appellant obtained a $637,500 loan from Washington
Mutual Bank, FA ("Washington"), which was secured by way of a mortgage
on the property located at 530 Summit Avenue, Westfield, New Jersey
07090. (ECF No. 12-6 at Ex. A). On July 19,2006, this transaction was
recorded with the Office of the Clerk of Union County. (Id.).
On approximately December 23,2014, the Federal Deposit Insurance
https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 2 of 14

Corporation, as a receiver of Washington, conducted the "First Assignment"
by assigning the mortgage to JPMorgan Chase Bank, N.A. ("Chase"). (Id. at
Ex. B). On or around the same date as the First Assignment, Chase
conducted the "Second Assignment" by assigning the mortgage to Appellee
LSF9. (Id. at Ex. C). Both the First and Second Assignments were recorded
with the Office of the Clerk of Union County on May 28,2015. (Id. at Exs. B,
C). On or about November 19,2015, Appellee LSF9 conducted the "Third
Assignment" by assigning the mortgage to Appellee US Bank. (Id. at Ex. D).
On December 8,2015, the Third Assignment was recorded with the Office of
the Clerk of Union County. (Id.). Appellee Caliber serviced the loan for
Appellee US Bank. (ECF No. 12-3 at Ex. A113).
B. The State Court Foreclosure Action

3

On January 12,2016, Appellee US Bank brought a foreclosure action in the
Superior Court of New Jersey, Union County, due to Appellant's failure to
make payments on the loan. (ECF No. 12-6 at Ex. E). Appellant did not
respond to the Foreclosure Action, and the Superior Court entered default
against Appellant. (Id. at Ex. F). On September 7,2016, Appellee US Bank
moved for final judgment. (Id. at Ex. G). On September 23,2016, Appellant
filed a cross-motion opposing *3 the entry of final judgment and requesting
that the default be vacated. (ECF No. 12-7 at Ex. H). After hearing oral
argument on the motion for final judgment and cross-motion in opposition,
the Superior Court adjourned said motions until May 2017 and allowed
Appellant to submit additional support for her arguments. (ECF No. 12-6 1
14).
Appellant filed an additional certification in opposition to the entry of final
judgment in May 2017. (ECF No. 12-7 at Ex. J). In her certification, Appellant
argued, among other things, that Appellee US Bank lacked standing to bring
the Foreclosure Action because the mortgage was allegedly sold by
Washington before the First Assignment, thereby invalidating all of the
abovementioned assignments, including the Third Assignment to Appellee
US Bank. (Id. at Ex. J6-12). In May 2017, upon receiving this certification

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 3 of 14

and Appellee US Bank's response, the Superior Court issued an order
denying Plaintiffs cross-motion and a separate order entering final
judgment in favor of Appellees. (Id. at Exs. L, M). In entering final judgment,
the Superior Court ordered that: (1) Appellee US Bank was entitled to
payment out of the mortgaged property; (2) the mortgaged property would
be sold to satisfy the money due to Appellee US Bank; and (3) Appellant was
"absolutely debarred and foreclosed of and from all equity of redemption of,
in, and to" the mortgaged property. (Id. at Ex. M, p. 4).

4

In June 2017, Appellant filed With the Superior Court a motion to stay and or
vacate the final judgment, and again raised the argument that Appellee US
Bank did not have standing to bring the Foreclosure Action because
Washington sold the loan prior to the First Assignment. (Id. at Ex. P1 25).
The Superior Court heard oral argument on Plaintiffs motion and, on or
around June 23,2017, denied same. (Id. at Ex. Q). *4
C. The Underlying Bankruptcy Action
On August 14,2017, Appellant filed a Chapter 13 petition with the
Bankruptcy Court. (ECF No. 12-3 at Ex. A *1 50). On December 18,2017,
Appellant commenced an adversary proceeding in Bankruptcy Court, which
sought:
(a) [a] declaratory judgment determining that Defendants lack
standing to assert and/or enforce liens against any property in
Plaintiffs bankruptcy estate and or debts against Plaintiff; (b) to
invalidate Defendants' actual and/or purported liens against
property in Plaintiffs bankruptcy estate; and (c) to disallow and/or
preemptively disallow Defendants' filed and/or unfiled claims.
(Id. at Ex. A i 1) .
In her request for declaratory judgment, Appellant again alleged that
Washington sold the mortgage and loan prior to the time of the First
Assignment, and that Appellees therefore did not have a valid claim of

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 4 of 14

entitlement or standing to collect on the mortgage and loan. (Id. at Ex. A ^
59)-

5

On February 23,2018, Appellees moved to dismiss Appellant's Adversary
Complaint, pursuant to Federal Rules of Civil Procedure 12(b)(1) and 12(b)
(6). (ECF No. 12-5). In their Motion to Dismiss, Appellees argued among
other things that Appellant's claims are precluded under the Rooker-Feldman
doctrine, because final judgment was already entered in favor of Appellees
during the Foreclosure Action on the claims being asserted by Appellant. (Id.
at 7-11). Specifically, Appellees argued that Appellant was seeking to undo
the Superior Court's final judgment by having the Bankruptcy Court
invalidate Appellees' Hen on the property and claim of entitlement to collect
on the mortgage and loan. (Id. at 10). Appellees also argued, among other
things, that Appellant's claims were barred by the entire controversy
doctrine and res judicata. (See generally id.). On April 12,2018, the Bankruptcy
Court issued an Order granting Appellees' Motion and dismissing
Appellant's Adversary Complaint with prejudice. (ECF No. 12-13). *5
D. This Appeal
Accordingly, on or around April 26,2018, Appellant filed this appeal of the
Bankruptcy Court's Order granting Appellees' Motion to Dismiss Appellant's
Adversary Complaint with prejudice. (ECF No. 1). Appellant argues that the
Bankruptcy Court misapplied the law and abused its discretion when it
determined that Appellant's Adversary Complaint was barred by, among
other things, the Rooker-Feldman doctrine and res judicata. (See generally ECF
No. 12).

II. T.F.GAT. STANDARD
A. Standard of Review
"The proper standard of review to be applied by a district court when
reviewing a ruling of a bankruptcy court is determined by the nature of the
issues presented on appeal." In re Beers, No. 09-1666,2009 WL 4282270, at
https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 5 of 14

*3 (D.NJ. Nov. 30,2009) (quoting Baron & Buddy P.C. v. Unsecured Asbestos
Claimants Comm., 321 B.R. 147,157 (D.N.J. 2005)), affd, 399 F. App'x 748 (3d
Cir. 2010). Specifically, this Court "review[s] the bankruptcy court's legal
determinations de novo, its factual findings for clear error and its exercise of
discretion for abuse thereof." In re United Healthcare Sys., Inc., 396 F.3d 247,
249 (3d Cir. 2005) (quoting In re Trans World Airlines, Inc., 145 F.3d 124,13031 (3d Cir. 1998)).

6

In the appeal currently before this Court, there does not appear to be any
dispute regarding the factual record relied on by the Bankruptcy Court.
Instead, Appellant takes issue with the legal conclusions reached by the
Bankruptcy Court in granting Appellees' Motion to Dismiss, which the
Court shall review de novo. See In re JOL Advisors, Inc., No. 15-7912,2017 WL
772912, at *7 (D.N.J. Feb. 28,2017) (applying a de novo standard of review to
a bankruptcy court's grant of a motion to dismiss). *6
B. Subject Matter Jurisdiction
Under Federal Rule of Civil Procedure 12(b)(1), a defendant may move to
dismiss a complaint for lack of subject matter jurisdiction. The plaintiff, as
the party asserting jurisdiction, bears the burden of establishing that a
federal court has authority to hear the matter. Packard v. Provident Natl
Bank, 994 F.2d 1039,1045 (3d Cir. 1993). An attack under Federal Rule of
Civil Procedure 12(b) (1) may assert either a factual or facial challenge to the
Court's jurisdiction. See Taliaferro v. Darby Twp. Zoning Bd., 458 F.3d 181,188
(3d Cir. 2006); Gould Elecs. Inc. v. United States, 220 F.3d 169,176 (3d Cir.
2000). When a defendant facially attacks the Court's jurisdiction, this type
of challenge contests the adequacy of the language used in the pleading.
Gould Elecs. Inc., 220 F.3d at 176. Therefore, the Court must construe the
pleadings in the light most favorable to the plaintiff and presume all wellpleaded factual allegations in the complaint as true. Id. Alternatively, when
bringing a factual attack, the defendant contends that the facts on which the
plaintiff's allegations rely are not true, and therefore the plaintiffs
allegations do not benefit from a presumption of truthfulness. Id.

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 6 of 14

Here, Appellees are asserting a facial attack on the Bankruptcy Court's
subject matter jurisdiction, and the Court shall therefore consider the
allegations in the light most favorable to Appellant. See JOL Advisors, Inc.,
2017 WL 772912, at *7 (determining that a challenge under the RookerFeldman doctrine was a facial attack); see also Frame v. Lowe, No. 09-2673,
2010 WL 503024, at *5-6 (D.N.J. Feb. 8,2010) (same).
C. Failure to State a Claim

7

To withstand a motion to dismiss for failure to state a claim, a "complaint
must contain sufficient factual matter, accepted as true, to 'state a claim to
relief that is plausible on its face.'" Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, *7 570 (2007)). "A claim has
facial plausibility when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the
misconduct alleged." Id. (citing Twombly, 550 U.S. at 556). "The plausibility
standard is not akin to a 'probability requirement,' but it asks for more than
a sheer possibility that a defendant has acted unlawfully." Id. (quoting
Twombly, 550 U.S. at 556).
To determine the sufficiency of a complaint under Twombly and Iqbal in the
Third Circuit, the Court must: (1) "tak[e] note of the elements [the] plaintiff
must plead to state a claim"; (2) "identify allegations that, because they are
no more than conclusions, are not entitled to the assumption of truth"; and
(3) "[w]hen there are well-pleaded factual allegations, [the] court should
assume their veracity and then determine whether they plausibly give rise to
an entitlement to relief." Connelly v. Lane Constr. Corp., 809 F.3d 780,787 (3d
Cir. 2016) (quotations and citations omitted). "In deciding a Rule 12(b)(6)
motion, a court must consider only the complaint, exhibits attached to the
complaint, matters of public record, as well as undisputedly authentic
documents if the complainant's claims are based upon these documents."
Mayer v. Belichick, 60s F<3d 223,230 (3d Cir. 2010).

III. ANALYSIS
https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 7 of 14

A. The Rooker-Feldman Doctrine
In their Motion to Dismiss filed before the Bankruptcy Court and in their
opposition to this appeal, Appellees argued that Appellant's Adversary
Complaint is barred by the Rooker-Feldman doctrine. (ECF No. 12-5 at 7-11;
ECF No. 16 at 11-22).

8

Under the Rooker-Feldman doctrine, a federal district court is barred from
hearing cases "that are essentially appeals from state-court judgments."
Great W. Mining & Mineral Co. v. Fox Rothschild LLP, 615 F.3d 159,165 (3d Cir.
2010). Put another way, a suit is barred under *8 the Rooker-Feldman
doctrine where "a favorable decision in federal court would require negating
or reversing the state-court decision." Id. at 170 n.4 (citations omitted). The
Third Circuit has repeatedly and explicitly held that federal courts are
barred by the Rooker-Feldman doctrine from providing relief that would
overturn a state court foreclosure decision. See, e.g., Gage v. Wells Fargo Bank,
NA AS, 521F. App'x 49,51 (3d Cir. 2013); Manu v. Nafl City Bank oflnd., 471F.
App'x 101,105 (3d Cir. 2012); Moncriefv. Chase Manhattan Mortg. Corp., 275 F.
App'x 149,152-53 (3d Cir. 2008); Ayres-Fountain v. E. Sav. Bank, 153 F. App'x
91,92 (3d Cir. 2005).
In order for the Rooker-Feldman doctrine to apply, four requirements must
be met: "(1) the federal plaintiff lost in state court; (2) the plaintiff
'complain[s] of injuries caused by [the] state-court judgments'; (3) those
judgments were rendered before the federal suit was filed; and (4) the
plaintiff is inviting the district court to review and reject the state
judgments." Great W. Mining & Mineral Co., 615 F.3d at 166 (quoting Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,284 (2005)). "The second
and fourth requirements are the key to determining whether a federal suit
presents an independent, non-barred claim" and these requirements are
"closely related." Id. at 166,168.
The first and third prongs are clearly met in the instant action. In or around
May 2017, Appellant was the losing party in the Foreclosure Action in the

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 8 of 14

Superior Court of New Jersey. Appellant did not file the Bankruptcy Action
until August 2017 and did not file her Adversary Complaint in the
Bankruptcy Court until December 2017, i.e., several months after the
Superior Court entered final judgment against Appellant. (See ECF No. 12-3
at Ex. A; ECF No. 12-7 at Ex. M).

9

The second and fourth prongs are also satisfied here. The Third Circuit
previously addressed a case that is informative to the Court's current
decision. In Gage, 521F. App'x at 50, *9 the plaintiff "defaulted on his
mortgage, and [the defendant] Wells Fargo subsequently filed a foreclosure
complaint in state court" which ruled in Wells Fargo's favor. The plaintiff in
Gage subsequently filed a complaint in federal court, claiming in part that
the foreclosure judgment was invalid because Wells Fargo "had no right to
foreclose on the property." Id. The District Court granted Wells Fargo's
motion to dismiss and held that the claims were barred under the RookerFeldman doctrine. Id. at 50-51. In affirming the District Court's decision, the
Third Circuit held that all four prongs of the Rooker-Feldman test were
satisfied and stated that:
Gage cannot evade Rooker-Feldman by arguing on appeal that he was
not injured by the foreclosure judgment, but rather by Wells Fargo's
purportedly fraudulent actions. The complaint reveals the nature of
Gage's claims against Wells Fargo: that the bank had no right to
foreclose on the property and therefore committed "criminal acts"
by enforcing the foreclosure judgment (Counts I and IV). These
claims are in essence an attack on the state court judgment of
foreclosure. Furthermore, an aspect of the relief that Gage requests
—to have the deed to the property restored to him—makes it
abundantly clear that he seeks to overturn the foreclosure
judgment. Accordingly, the claims against Wells Fargo were
properly dismissed under the Rooker-Feldman doctrine.
Id. at 51.

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 9 of 14

10

The Court reaches a similar conclusion here. As to the second prong, even
when viewed in a light most favorable to Appellant, the Adversary
Complaint effectively alleges injuries caused by the Superior Court's entry
of final judgment in the Foreclosure Action. Specifically, Appellant alleges
that: (1) Appellees did not have any entitlement to collect on the mortgage;
(2) Appellees therefore did not have standing to collect on the mortgage and
loan; (3) Appellees nevertheless enforced a false claim of entitlement and
attempted to collect on the mortgage and loan; and (4) Appellees' attempt to
collect on the mortgage and loan deprived Appellant of title to her property.
Despite Appellant's argument to the contrary, (ECF No. 12 at 21-29), the
Court finds that these allegations relating to Appellees' entitlement and
standing to collect on the mortgage and loan *10 cannot be viewed
independently of the Foreclosure Action, because said allegations "are in
essence an attack on the state court judgment of foreclosure." Gage, 521 F.
App'x at 51 (concluding same).
Moreover, as relevant to the fourth prong, adjudicating Appellant's claims
would require this Court to impermissibly engage in appellate review of the
Foreclosure Action. In particular, granting Appellant's request for a
declaratory judgment that Appellees do not have entitlement or standing to
collect on the mortgage and loan would necessarily challenge the validity of
the Superior Court's entry of final judgment ordering that Appellees are
entitled to collect on the loan of the mortgaged property. "This type of
action is exactly what Rooker-Feldman is meant to prevent: an attempt to
invalidate the final judgment of foreclosure and various other orders from a
state court action in a separate federal court action." Willoughby v. Zucker,
Goldberg & Ackerman, LLC, No. 13-7062,2014 WL 2711177, at *4 (D.N.J. June
16,2014). Accordingly, the Court finds that the Bankruptcy Court correctly
held that Appellant's Adversary Complaint is barred by the Rooker-Feldman
doctrine, and hereby affirms the Bankruptcy Court's Order dismissing same.
B. Res Judicata
The Court finds in the alternative that res judicata precludes Appellant's

https://casetext.com/case/farrington-v-us-bank-tmst-na-in-re-farrington

8/27/20, 1:00 PM
Page 10 of 14

11

claims. Res judicata, or claim preclusion, bars all claims that were brought, or
that could have been brought, in a prior proceeding. In re Mullarkey, 536 F.3d
215,225 (3d Cir. 2008). Res judicata requires "(1) a final judgment on the
merits in a prior suit involving; (2) the same parties or their privities; and
(3) a subsequent suit based on the same cause of action." Bd. ofTrs. of
Trucking Emps. ofN. Jersey Welfare Fund, Inc. - Pension Fund v. Centra, 983
F.2d 495,504 (3d Cir. 1992) (citing United States v. Athlone Indus., Inc., 746
F.2d 977,983 (3d Cir. 1984)). *xi
1. First and Second Element
The first and second elements of resjudicata are easily met in this case. As to
the first element, the Superior Court entered final judgment against
Appellant in the Foreclosure Action after both parties had an opportunity to
litigate the questions of whether or not Appellant were entitled to collect on
the mortgage and had standing to bring the case. Specifically, the Superior
Court considered the issue of Appellees' entitlement and standing to collect
on the mortgage and loan on at least two occasions: (1) in Appellant's May
2017 certification in opposition to final judgment; and (2) in Appellant's
subsequent motion to stay and or vacate the final judgment. As to the
second element, Appellant and Appellees concede that they were parties to
both the Foreclosure and Bankruptcy Actions. (ECF No. 12 at 33; ECF No. 16
at 24).

2. Third Element
The Court also finds that the third element of resjudicata is met in this case.
To show that two cases arise from the same cause of action, the Court must
find "an essential similarity of the underlying events" of both cases. Athlone
Indus., Inc., 746 F.2d at 984. In order to make this determination, the Court
looks for similarities in the acts complained of and the facts alleged, the
relief being sought, the theory of recovery, and the evidence necessary for
trial. Id. (citations omitted).
In applying these factors, the Court has compared the Bankruptcy Action
https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 11 of 14

12

with the Foreclosure Action and finds that the underlying events of the
cases are substantially similar. In particular, both actions sought to resolve
the issue of Appellees' ability to collect on the mortgage and loan. Moreover,
Appellant relied on the same argument in both the Foreclosure Action and
Bankruptcy Action, z.e., that Appellees were not entitled to collect on the
mortgage and loan, and therefore did not have standing to collect on same.
This argument was necessarily rejected by the *12 Superior Court when it
denied Appellant's Cross-Motion and entered final judgment in favor of
Appellees. Accordingly, the Court finds that all three elements of res judicata
are met in this case and therefore shall affirm the Bankruptcy Court's Order
alternatively dismissing Appellant's Adversary Complaint on this basis.2
2 As the Court has determined that Appellant's Adversary Complaint is barred
by the Rooker-Feldman doctrine and res judicata, the Court need not address
Appellant and Appellees' remaining arguments.-------

IV. CONCLUSION
For the aforementioned reasons, the Court denies Appellant's appeal and
affirms the Order of the Bankruptcy Court granting Appellees' Motion to
Dismiss Appellant's Adversary Complaint. An appropriate Order follows this
Opinion. Dated: March n^1., 2019.

IsL
JOSE L. LINARES
Chief Judge, United States District Court

https://casetext.com/case/farrington-v-us-bank-trust-na-in-re-farrington

8/27/20, 1:00 PM
Page 12 of 14

